                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: I08030024
                                                                                11           Page 1 of 1


          We received an allegation that a research organization1 misused funds2 during an NSF grant.3
          Our investigation determined that the research organization inadvertently used NSF funds for
          expenses not associated with the grant. The research organization identified the problem prior to
          our involvement, removed the charges from the NSF grant, and transferred them to the proper
          grant. No further action is warranted and this case is closed.




         -=




\ISF OIG Form 2 (1 1/02)
